No. ____________
IN THE SUPREME COURT OF THE UNITED STATES
THE E-COMPANY, a dissolved Illinois Corporation, T&W EDMIER CORP., a dissolved
Illinois Corporation, EDMIER CORP., an Illinois Corporation, K EDMIER & SONS,
LLC, an Illinois Limited Liability Corporation, THOMAS EDMIRE, individually,
WILLIAM EDMIER, individually, LAKE STREET REALTY, INC., a dissolved Illinois
Corporation and E &E EQUIPMENT & LEASING, INC. an Illinois Corporation;
Applicants/Petitioners
v.
TRUSTEES OF THE SUBURBAN TEAMSTERS OF NORTHERN ILLINOIS PENSION
FUND,
Respondent.
APPLICATION FOR AN EXTENSION OF TIME WITHIN
WHICH TO FILE A PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
To the Honorable Supreme Court Justice Brett M. Kavanaugh, Justice to the United
States Court of Appeals for the Seventh Circuit:
Under Supreme Court Rules 13(5) and 30, the Applicants request a 60-day extension to
file their Petition for a Writ of Certiorari from the judgment of the Court of Appeals for the
Seventh Circuit in this case.1 The Court of Appeals entered the judgment on January 29,2019.
Applicants files a petition for Rehearing With a Suggestion for Rehearing En Banc which was
denied on March 4, 2019. Unless extended, the time within which to file a petition for a writ of
certiorari will expired on June 2, 2019.

Copies of the opinion of the Court of Appeals and the

order of the Court of Appeals denying the rehearing are attached, respectively as Exhibits A and
B. The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).
1

All parties to this case are listed in the Caption. There are no parent corporations or publicly
held companies in this case.
1

In this case, the sponsor of a multi-employer pension plan (the “Trustees”) sought to
collect “withdrawal liability” under provisions of the Employee Retirement Income Security Act.
29 U.S.C. §§ 100-1461, which allows a plan sponsor to pursue an employer for unfounded,
vested benefits of the plan which purportedly attributable to the employer. The process begins
with the issuance of a notice and demand for payment of the withdrawal liability. Id. at § 1399
(b). Any dispute between the employer and the plan sponsor as to the withdrawal liability must
be resolved by arbitration. Id. at § 1401 (a)(1) If an arbitration is not initiated, the amounts
demanded by the plan sponsor and the plan sponsor can bring an action for collection. Id. at
1401(b)(1) Liability extends to all trades and business which are under common control as
defined in regulations promulgated by the Secretary of the Treasury. Id. at § 1301(b)(1)
Consistent with Rule 10 (c), Applicants believe that review is warranted because the
Court of Appeals decided the constitutional issues raised by them contrary to the due process
standards established in Mullane v. Central Hanover Bank & Trust Co., 399 U.S. 306 (1950),
standards which this Court has consistently adhered to over the last seventy years. The notice of
withdrawal liability issued by Trustees was defective for two reasons. First, the notice was
addressed only to two bankrupt and dissolved corporations who had contributed to the plan (the
E-Company and T&W Edmier) and a third dormant corporation which never contributed to the
plan (Edmier Corporation), even though the identities of the owners of the Corporations were
known. Mullane specifically holds, as do a string of other decisions by the Court, one cannot
rely on theories of constructive notice, where the identities of the defendants are known. 399
U.S. at 318. See, also, Walker v. City of Hutchison, 352 U.S. 112, 116-17 (1956); Schroder v.
City of New York, 371 U.S. 208, 210-13 (1962); Greene v. Lindsey, 456 U.S. 444, 450-54

2

(1982); Mennonite Board of Missions v. Adams, 462 U.S. 791, 798-99 (1983); Tulsa
Professional Collection Services, Inc. v. Pope, 485 U.S. 478, 489-90 (1988).
Second, the notice the Trustee sent out was defective. Mallane requires that the notice
‘must be such a nature as reasonably convey the required information” for an appearance. 339
U.S. at 314. In Memphis Light, Gas and Water Division v. Craft, 436 U.S. 1, 13-14 (1978), the
Court held that the notice with more information than a statement that payment is over due and
the action which will be taken if payment is not made. The information was insufficient “to
apprise . . . [Applicants] of and permit adequate preparation for an impeding hearing,” Id. at 14,
failing reasonably advising them of their right to arbitrate, the deadline for its exercise or the
forfeiture of their objections to the claimed withdrawal liability, if they did seek arbitration.
Moreover, the notice misinformed the Edmiers about the risk of a finding of withdrawal liability
altogether stating:
If there are other corporations under common with T&W Edmier Corporation and
the E Company, and if those other corporations have also contributed to the Pension
Fund, then the contribution history of those companies should also be considered in
calculating withdrawal liability. (Dkt # 48-1 at p. 52) (Emphasis Added)

Without citation or explanation, the Court of Appeals found that standards announced in
Mullane for notice under the Due Process Clause are limited to service of process in lawsuits.
(Ex A, Opinion of Court of Appeals at 5-6) This conclusion is anomalous with Mullane itself
which does not limit its holding to judicial proceedings but specifically announce the standard as
“An elementary and fundamental requirement of due process in any proceeding which is to be
accorded finality . . . .” 339 U.S. at 314. (Emphasis Added)
Any doubt as to whether Mullane is confined to court proceedings, is certainly resolved
by several subsequent cases by the Court. The most obvious, of course, is Memphis Light, Gas

3

and Water, supra, which involved nothing more than a final notice, establishing for the cut off of
service, if the municipality was not paid. Due Process was held likewise found to apply to tax
sale notices in Minnonite Board of Missions, supra at 793-95, and Jones v. Flowers, 547 U.S.
220, 223-25 (2006), even the tax sale was separate proceeding form the judicial proceeding in
which the issue of due process was raised. Tulsa Professional Collection Service v. Pope, 485
U.S. 476 (1988) provides a further example. It involved a non-claim statute in a probate
proceeding, intended to advise creditors of the deadline for their claims. Id. at 470-81 The notice
was administrative; it did not necessary lead to litigation if the creditor filed, but a failure to file
automatically barred the claim. Citing Menmonite and Memphis, Light, Gas and Water, the
Court found, ‘It is not necessary for a proceeding to directly adjudicate the merits of a claim in
order to “adversely” . . . [affect a property] interest. Id at 488.
The Court of Appeals also deviated from the Court’s controlling precedents when it
decided that procedural due process issue was resolved by the District Court’s review of the
Edmiers’ membership in the alleged membership group. It relied on the its earlier decision in
Central States, Southeast and Southwest Area Pension Fund v. Slotsky, 856 F.2d 1369, 1369 (7th
Cir. 1992) determining whether an exception should be made to the forfeiture Rule. (Ex. A
Opinion at 3-4) However, the Court’s decision in Peralta v. Heights Medical Center, Inc., 485
U.S. 80 (1980), rather than Slotsky, governs the standard of review when one is deprived of
procedural due process by the failure to provide reasonable notice. It held that a violation of due
process could only be obviated by “wiping the slate clean” and restoring the defendant to the
position he previously occupied. Id. at 87.
Moreover, Slotsky is an imprecise and flawed substitute for procedural due process. It
promulgates an exceedingly extreme, evidentiary standard for review – absolutely no reason to

4

believe that they might be deemed members of a control group.” 653 F.3d at 1373. This standard
diverts the inquiry from the circumstances and the contents of the notice, ignores the duty of the
plan sponsors to provide reasonable notice and invites speculation as to the independent
speculation of the recipient of the notice. Indeed, the Court of Appeals engaged in such
speculation when stating the Edmiers “chose to ignore” the Trustee’s Notice and “had every
opportunity to arbitrate and yet failed to do so . . . . (Ex A Opinion)
The requested extension is necessary because the undersigned’s co-counsel, George L.
Grumley is seriously ill and has been unable to help him. Mr. Grumley was the principal
attorney in the case in the District Court. He worked with me on the Applicants’ Briefs in the
Court of Appeals and on their Motion For Reconsideration. He argued the appeal before the
Court of Appeals and the Edmiers’ have been long standing clients of his.

I had counted on Mr.

Grumley’s help in dealing with the clients and working on the Petition for a Writ of Certiorari.
Mr. Grumley had an operation last Summer to remove a cancerous growth on his ear and
head. Although the operation was a long one, it was thought the problem was behind him and
he and he regularly came into the office until he had some cosmetic surgery in late February. He
missed a few days in March when he claimed of pain after the February surgery, but his absences
became more prevalent after another operation in April on an arm, but assured me and other in
the office that he would be fine shortly thereafter. In May, however, his absences have been
pronounced and has not been to the office for the last three weeks and unable to work at home.
Initially, these absences were attributed to a fare up of his diabetes and we were told that it
would pass. However, we have since learned that his cancer has returned. Throughout this
period, I and others in the office have tried to cover Mr. Grumley’s commitments, as well as our
own.

5

While I have done some work on a Petition for a Writ of Certiorari, I cannot complete by
the due date. Because of my continuing efforts to assist Mr. Grumley during his illness, as well
as in discharging my own commitments, I believe I will require a full sixty day extension.
Respectfully Submitted,
By: /s/ Merle L. Royce
Attorney for Applicants
Merle L. Royce
Law Offices of Merle L. Royce
135 South LaSalle Street
Suite 4000
Chicago, IL 60603
(312) 553-1233
Royce4law@ gmail.com

6

